N         Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of GSA’s Controls
           over the National Capital
           Region’s Reimbursable
           Work Authorizations
           Report Number A120001/P/F/R13007
           September 11, 2013




A120001/P/F/R13007
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


REPORT ABSTRACT
OBJECTIVE                    Audit of GSA’s Controls over the National Capital Region’s
The objective of the audit   Reimbursable Work Authorizations
was to determine if the      Report Number A120001/P/F/R13007
                             September 11, 2013
General Services
Administration’s (GSA)
controls over                WHAT WE FOUND
Reimbursable Work            We identified the following during our audit:
Authorizations (RWAs),       Finding 1 – NCR has not consistently implemented PBS’s policies and
as implemented by the        procedures for managing RWAs and therefore does not have assurance that its
National Capital Region      RWA operations are effective and efficient, its RWA financial reporting is reliable,
(NCR), ensure                or its RWA operations are compliant with applicable laws and regulations.
compliance with              Specifically, the NCR service centers did not ensure:
applicable policies and
                                    Signatory authority or required training for accepting customers’ RWAs.
laws.
                                    Proper documentation supporting RWA funding and completion.
                                    Timely contracting for and close out of RWAs.
                                    Effective communication with customer agencies.
                                    Clearly defined and consistently implemented RWA policies and
                                     procedures.




                             WHAT WE RECOMMEND
                             We recommend the NCR Regional Administrator:
                                1. Develop and implement a plan to ensure existing controls are
                                   consistently applied at all NCR service centers and identify internal
                                   control system weaknesses to improve RWA management.
                                2. Clarify and actively manage the policy regarding RWAs to ensure that the
                                   service centers apply the policy consistently, and that RWAs are
Finance and Information            authorized at the appropriate levels throughout the NCR service centers.
Technology Audit Office
(JA-F)                  MANAGEMENT COMMENTS
1800 F Street, NW
                        The NCR Regional Administrator concurred with the recommendations.
Suite 5215              Management’s written comments to the draft report are included as Appendix C.
Washington, DC 20405
(202) 273-7322




     A120001/P/F/R13007                           i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 11, 2013
 TO:              Julia E. Hudson
                  Regional Administrator
                  National Capital Region (WA)

 FROM:            Donna Peterson-Jones
                  Audit Manager
                  Finance and Information Technology Audit Office (JA-F)
 SUBJECT:         Audit of GSA’s Controls over the National Capital Region’s
                  Reimbursable Work Authorizations
                  Report Number A120001/P/F/R13007


This report presents the results of our audit of GSA’s controls over the National Capital
Region’s Reimbursable Work Authorizations. Our findings and recommendations are
summarized in the Report Abstract. Instructions regarding the audit resolution process
can be found in the email that transmitted this report.

The initial draft report was issued on August 27, 2012. We discussed the contents of
the initial draft report with management officials and considered their comments in
preparing the revised draft report. Your written comments to the revised draft report are
included in Appendix C of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Donna Peterson-Jones    Audit Manager         donna.peterson@gsaig.gov        (202) 273-7322

Rhiannon Mastrocola     Auditor               rhiannon.mastrocola@gsaig.gov   (202) 273-7322

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120001/P/F/R13007                       ii
Table of Contents

Introduction .............................................................................................................. 1

Results
Finding – NCR has not consistently implemented PBS’s policies and procedures
          for managing RWAs and therefore does not have assurance that its
          RWA operations are effective and efficient, its RWA financial reporting
          is reliable, or its RWA operations are compliant with applicable laws
          and regulations........................................................................................... 2
Recommendations ..................................................................................................... 9
Conclusion .............................................................................................................. 11

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – RWA Matrix: Types & Examples ................................................ B-1
Appendix C – Management Response ....…………………………………….….... C-1
Appendix D – Report Distribution …………………………………………….……. D-1




A120001/P/F/R13007                                        iii
Introduction
Reimbursable Work Authorizations (RWAs) are agreements between the General
Services Administration (GSA) Public Buildings Service (PBS) and a customer agency.
RWAs are established to capture and bill customer agencies for the cost of altering,
renovating, repairing, or providing services over and above the basic operations
financed through rent in space managed by PBS and in other properties managed by
the Federal community. Under these agreements, PBS agrees to provide the
material(s) and/or service(s) needed to accomplish the work and the customer agency
agrees to reimburse GSA for associated costs.

PBS’s Reimbursable Services Division administers GSA’s Reimbursable Services
Program.1 The Division provides the policy guidance, expertise, data, training, and
customer interfacing needed to accomplish PBS’s national reimbursable program goals
and objectives. These policies and procedures are outlined in the RWA National Policy
Document (NPD) and PBS’s National Financial Accounting Process and Internal
Controls Desk Guide (Desk Guide).

Per the NPD, “the act of providing reimbursable goods and services must begin only
after PBS obtains the obligational authority to provide those goods and services on
behalf of the customer agency.” PBS cannot begin work to provide reimbursable goods
or services to a customer agency until GSA Form 2957 Reimbursable Work
Authorization has been completed and accepted (including the required supporting
documentation).2 Once the purpose of the RWA has been fulfilled, properly designated
and qualified officials must ensure that the RWA is substantially completed and then
financially closed out. The financial closeout, which includes the de-obligation of
customer funding, should occur 60 days after substantial completion. At that time, any
excess or residual funds should be returned to the customer agency. At year-end
closing, financially complete RWAs are eligible for purging from PBS’s financial records.
Finally, RWA Customer Letters are used to fulfill GSA’s obligation to effectively and
uniformly communicate with customer agencies at key milestones and to properly
maintain documentation that reflects both agreement and project status of an RWA.

Our objective was to determine if GSA’s controls over RWAs, as implemented by the
National Capital Region (NCR), ensure compliance with applicable policies and laws.3
See Appendix A – Purpose, Scope and Methodology for additional details.


1
  The Reimbursable Services Division was established in January 2009, within the Office of Facilities
Management and Services Programs, and supports a national group composed of representatives from
GSA regions and PBS Central Office. Before the Division was established, the 2005 RWA National
Policy Document stated the PBS Chief Financial Officer was responsible for policy oversight.
2
  “Reimbursable Work Authorization” is the title of GSA Form 2957; hereafter referred to in this report as
“RWA Form 2957.”
3
  Federal appropriations laws include 31 USC §1501(a) (Recording Statute); 31 USC §1552(a) (Period of
Availability); 31 USC §1502 (Bona Fide Need Rule); and 31 USC §1341 (Anti-Deficiency Act).



A120001/P/F/R13007                              1
Results
Finding 1 – NCR has not consistently implemented PBS’s policies and
procedures for managing RWAs and therefore does not have assurance that its
RWA operations are effective and efficient, its RWA financial reporting is reliable,
or its RWA operations are compliant with applicable laws and regulations.

NCR is not adhering to or consistently applying RWA policies and guidance in the RWA
NPD and the PBS Desk Guide. As a result, the overall effectiveness of controls
established by PBS for the successful management of RWAs is reduced and the
efficiency in how PBS serves its customers is diminished. Furthermore, these issues
place GSA at risk for unreliable financial reporting, improper use of funds, and potential
violations of GSA acquisition policy as well as applicable laws and regulations.

During our audit, we randomly selected 85 A-, B-, F-, and N-type RWAs for testing over
the RWA process from acceptance to completion and found multiple issues. 4 In
particular, we found that RWAs were being accepted by personnel without the proper
authority, RWA documentation did not always support the RWA funding amount or
completion date, and in some cases the contractual obligation and close-out of RWAs
was not timely. Additionally, communication with customers was not always taking
place as required, especially with regard to the de-obligation of excess customer funds.
Lastly, certain policies and procedures over the RWA process have been interpreted
differently within the region leading to inconsistent practices.

Lack of Signatory Authority and Required Training for Accepting RWAs
Signatory authority is required for RWA acceptance and approval; however, NCR
personnel were accepting RWAs without the appropriate signatory authority. In
addition, NCR was unaware whether authorized approvers were properly trained.

Lack of Signatory Authority for Accepting RWAs
NPD Section 4.3.4: “PBS Approving Official Signature Thresholds and Delegation of
Authority,” states:

       The PBS representative who accepts the RWA must have the authority to
       sign the RWA. Each region must document signature delegations from
       the Regional Commissioner (RC) that give authority to specific managers,
       or representatives, to sign RWAs for the purpose of accepting funds from
       a customer agency.

Within our sample, 14 RWAs totaling $8.6 million were signed by NCR personnel, who
either did not have delegated signatory authority or exceeded their authority. Without

4
  Our sample included 24 A-type, 25 B-type, 24 F-type, and 12 N-type RWAs. When one existed, we also
tested the most recent financial amendment for each RWA randomly selected. A total of 31 amendments
were tested among the 85 original RWAs. See Appendix B for descriptions and examples of services
associated with each of the RWA types we tested.


A120001/P/F/R13007                           2
signatory authority, there is no assurance that individuals signing/approving RWAs have
the knowledge and qualifications to ensure that accepted RWAs are accurate and
complete.

No Documentation Supporting Compliance with Training Requirements
Desk Guide Section 3.6: “Key Elements” states that all PBS approving officials must
complete the training courses offered by the PBS Reimbursable Services Division prior
to signing an RWA. Level III training is specifically designed for all signing/approving
officials and must be completed annually by those with signatory authority. During
fieldwork, NCR could not provide evidence that signing/approving officials completed
the required annual training; therefore, there was no assurance that the training was
actually completed. Without training, individuals may not have signatory authority to
accept or may not know the requirements for accepting RWAs from customer agencies.

In response to our inquiry, PBS officials told us that GSA’s Online University system
experienced a technical problem and did not capture the individuals who passed the
required annual training for fiscal year 2011.

Improper Documentation Supporting RWA Funding and Completion
Documentation in the RWA files should support the financial aspects of the RWA,
including cost, funding, and project completion. However, we found that RWA funding
and completion was not always supported by the documentation.

RWAs Were Accepted Without Proper Support for Funding
The NPD outlines specific criteria regarding the requirements of a properly executed
RWA. To be accepted by PBS, NPD Section 3.1: “RWA Definition” and Section 4.2:
“Submission and Acceptance” specify that an RWA must include a scope of work with
sufficient detail to confirm a bona fide need,5 a cost estimate that supports the scope of
work and the total authorized amount of the RWA,6 and all required signatures. Section
3.1 of the NPD further states that the customer agency funding and the expiration date
of obligational authority must be clearly identified. The scope of work and cost estimate
are needed to establish a valid amount for funding the RWA. Customer funding
information is needed to ensure that the funding is properly available to GSA.

In our sample, the requirements for properly funding and executing an RWA were either
not being met or were missing. We found:

       Five original RWAs and one amendment did not have a fully developed scope of
        work;




5
  The Bona Fide Need Rule, 31 USC §1502(a), requires that fiscal year appropriations be used only for
expenses properly incurred in the fiscal year for which the appropriation was made.
6
  Cost estimates are not required for F-type RWAs.


A120001/P/F/R13007                           3
       Twenty-six original RWAs and fourteen amendments did not have a detailed cost
        estimate or did not have a cost estimate that agreed to the authorized amount on
        the corresponding RWA Form 29577
       Eight original and one amended RWA Form 2957 were missing required
        customer agency funding information (e.g. annual, no-year, multi-year); and
       One signed, amended RWA Form 2957 was missing meaning the customer
        agency funds could not be verified as legally available.

RWA Completion Was Not Properly Documented
Determining that an RWA is complete begins the process to financially close out and
terminate an RWA. If the completion date is not established, the RWA remains open
and any remaining funds are not available to the customer agency for other uses and
may be at risk for improper use. For an RWA to be considered “complete”8 PBS
confirms that the actual work requested is substantially completed by verifying that “the
date of the inspection report, the date of substantial completion on the RWA [RWA
Form 2957], and the substantial completion date entered” in the RWA Entry and
Tracking Application (RETA9) are all the same. In addition, the substantial completion
date should be entered into RETA within 30 days. However, in reviewing our sample
we found:

       Twenty RWAs did not have a final inspection report with a date that
        corresponded to the completion date recorded on the RWA Form 2957, and
        reported in RETA;
       Fifteen RWAs did not have a signed “complete” RWA Form 2957; and
       Four RWAs did not have completion dates entered into RETA within 30 days.

Untimely Contracting for and Close Out of RWAs
PBS policies stress the timely obligation of funding and close out of the RWA. This not
only assures that customer needs are met in a timely manner, but also that RWAs are
valid and being managed properly. We found that, in some cases, RWA processes are
not meeting the timeframes prescribed by PBS’s policies and guidance.

Untimely Contractual Obligations
According to Section 3.6 of the Desk Guide:

        GSA must make every effort to contractually obligate the customer agency
        funding within a “reasonable time” as required by GSA acquisition policy.
        “Banking” or “parking” of customer agency funds with PBS in an effort to
        circumvent funding restrictions is not allowed under any circumstances.

7
  The 2008 Standard Operating Procedures User Guide states the objective of the cost estimate is to
“detail the cost of the actual work to be performed. It includes direct and indirect costs, as well as the
magnitude of the work (i.e., square footage, number of hours, etc.).”
8
  Per NPD Section 4.5, “complete” is defined as an RWA that PBS has executed, fulfilled or delivered
goods and/or services as requested by the customer agency.
9
  RETA interfaces with the National Electronic Accounting and Reporting RWA Database system and
serves as a data repository for related RWA documentation.


A120001/P/F/R13007                              4
GSA Acquisition Letter V-09-06, dated June 16, 2009, further defines reasonable time
as the acquisition lead-time required for GSA to contractually obligate accepted funds,
based on the complexities of the requirement, mutually agreed upon and documented
between the customer agency and GSA at the time of the funds’ acceptance. 10 Longer
periods of time should be “justified by executing a written justification. If no separate
agreement has been made, a ‘reasonable time’ of 90 calendar days shall be
presumed.” (Emphasis added)

However, in many cases NCR service center personnel did not contractually obligate
RWA funding within a reasonable time or document reasons for delays. Of the RWAs
that were untimely obligated, funding for 36 of 85 RWAs selected for testing was not
contractually obligated within 90 days of acceptance (see Figure 1 for details). The
delays in contractual obligation of funds for these RWAs ranged from 96 days to 696
days. No contractual obligations were made for 9 of 85 RWAs tested: 8 were closed
out without any financial obligations charged against them; and 1 has been open for
approximately 4 years without any contractual obligations.

PBS personnel were unable to provide adequate explanation or documentation for the
delays. Not obligating funding within a reasonable time creates the appearance that a
bona fide need may not have existed at the time the RWAs were accepted, and that
customer agencies were “parking” funds at GSA. Inadequate execution, monitoring,
and supervision of an RWA could lead to possible violations of federal appropriations
laws.




10
   “Reasonable time” was first introduced by GSA Acquisition Letter V-05-15 on July 18, 2005, stating,
“GSA…must act reasonably and expeditiously to take contract action on customer requirements…It is
normally reasonable for 90 days to elapse between acceptance of the reimbursable agreement and the
execution of the contract or order.” GSA Acquisition Letter V-06-05, dated June 2, 2006, also “defined
‘reasonable time’ to mean 90 days in most cases. All procurements that have not been executed within
90 days after acceptance…are subject to a review,” which must be maintained in the contract file.


A120001/P/F/R13007                            5
                    Figure 1 – Untimely Obligation of RWAs by Type


                                 A-Type        B-Type       F-Type       N-Type        Totals

    90-100 Days                      1            1            1             1            4
    101-200 Days                     3            9            3             0           15
    201-300 Days                     3            3            1             1            8
    301-400 Days                     2            1            1             0            4
    401-500 Days                     2            0            0             1            3
    >500 Days                        1            1            0             0            2
    No    Obligations  or
                                     0            1            7             1            9
    none before Closeout
    Totals                          12            16           13            4           45

Note: Although not exempt from the reasonable time requirements set forth in GSA Acquisition Letter V-
09-06, F-type RWAs must close by September 30 of the fiscal year in which they were issued, thereby
limiting the risk that these RWAs could be used to “park” funds or otherwise circumvent appropriations
law applicable to the RWA program.

Untimely Close-out of Completed RWAs
According to the NPD, “complete” RWAs must be actively reviewed and all outstanding
issues must be resolved. Per the Desk Guide, “obligations and expenses may be
processed after the completion date is entered for a period of 60 days, or until the
termination (financial completion date) is set.” The NPD further states that any RWA
with a termination date and no open items is considered financially complete. However,
NCR did not review and resolve outstanding financial issues to ensure RWAs were
terminated timely and financially closed-out. Of the “complete” RWAs tested, we noted
the following:

      One RWA was closed out by NCR only after the customer agency informed the
       service center that the project was complete and no funding remained. PBS had
       approximately $500,000 as a remaining balance for this RWA, while the
       customer agency reported a $0 balance.
      Six RWAs had a termination date set beyond the standard 60-day period without
       supporting documentation. Two of these six cases (F-Type RWAs) took more
       than 200 days after fiscal year-end to resolve outstanding financial issues.
      For 11 terminated RWAs, financial activity was posted after the termination date
       was set.

Untimely termination increases the risk that PBS could unintentionally obligate funds
that were not available, potentially resulting in a violation of federal appropriations law.
Delayed termination of RWAs from PBS’s financial records also increases the risk of
inaccurate reporting of budgetary accounts for both GSA and the customer agency.




A120001/P/F/R13007                            6
Lack of Effective Communication with Customer Agencies
Customer Service Letters were implemented to standardize communication about
RWAs with customer agencies and have been required since October 1, 2007, with the
issuance of the memorandum, “National Implementation RWA Customer Service
Letters.”11 This requirement was further reinforced in Section 4 of the June 2010
issuance of the NPD. However, the inconsistent use of the letters threatens PBS’s
ability to promote and sustain customer satisfaction and may prevent the timely de-
obligation of unspent customer agency funds.

We reviewed both RETA and the RWA files for evidence that the customer agency was
notified of key project milestones and found that NCR did not effectively or uniformly
communicate RWA project milestones or statuses with its customer agencies as
required.

In many cases, there was no documentation indicating Customer Service Letters were
actually used. Specifically:

        Receipt Letters for 33 original RWAs and 21 amendments could not be located
         acknowledging GSA's receipt of the RWA;
        Acceptance Letters for three original RWAs and four amendments were missing
         to support that the customer agency was notified of GSA's acceptance of the
         RWA;
        Follow-up Letters (or other customer correspondence)12 did not exist in the files
         for 45 RWAs that had delays in contractual obligations or no contractual
         obligations, or had missing or insufficient scopes of work;
        Completion Letters for 24 “complete” RWAs could not be located to support
         whether the customer agency was notified of the RWA’s project completion; and
        Closeout Letters for 17 “complete” RWAs were not sent to customer agencies
         informing them to de-obligate residual RWA funding.13

Additionally, Customer Service Letters should be used to notify customer agencies
about residual RWA funds upon completion, so that customer agencies can de-obligate
and properly manage the excess funds. However, we found that:

        For 26 RWA files, NCR service centers did not timely notify the customer agency
         to de-obligate residual RWA funding; and
        For 4 RWA files, NCR service centers informed the customer agency to de-
         obligate an amount that differed from the RWA remaining balance.
11
   There are five types of Customer Service Letters used to communicate the status of RWA projects to
customer agencies: Receipt, Acceptance, Completion, Closeout and Follow-up.
12
   According to PBS, “the intent of distributing the Follow-up Letter is to allow the customer agency an
opportunity to confirm project status or to clarify project requirements post acceptance of the RWA.” In
instances in which a project's commencement is delayed or a project does not have sufficient scope or
information to proceed, a Follow-up Letter is necessary.
13
   Financial completion requires distribution of the project Closeout Letter to the customer agency, which
identifies the remaining balance to be de-obligated and the return of any excess or residual funds back to
the customer agency.


A120001/P/F/R13007                              7
Inconsistently Implemented and Unclearly Defined RWA Policies and Procedures
In several instances, RWA policies and procedures surrounding key phases of the RWA
process, including acceptance and completion, were not clearly defined, and NCR did
not establish its own interpretation for its staff to follow. As a result, NCR personnel did
not consistently apply and adhere to these policies and procedures, thereby limiting
management’s ability to ensure its reimbursable services program was operating
effectively and meeting internal control objectives.

Inconsistent Approvals of RWAs over $5 Million
According to NPD Section 4.3.4: “PBS Approving Official Signature Thresholds and
Delegation of Authority,” the PBS Regional Commissioner, Deputy Regional
Commissioner, or the Regional Chief Financial Officer (CFO) must approve RWA Forms
2957 in excess of $5 million.14 However, the NPD is unclear as to whether the $5
million threshold and signatory authority requirement applies to the total authorized
amount of an RWA (the original RWA, plus any subsequent amendments) or to each
RWA Form 2957 submitted. This has resulted in inconsistent application of the NPD
regarding the authorization of RWAs over $5 million by NCR service centers. We found
that one service center submitted a $500,000 amendment (that increased the total
authorized amount of an RWA over $5 million) for review and approval to the PBS
Regional CFO; while another service center did not. Without clearly defined policies
followed consistently at all NCR service centers, there is no assurance RWAs are being
properly approved within authorized thresholds and signature authority.

Policies on Documentation in RETA are Inconsistent
During our fieldwork, we found that the type and extent of documentation maintained
electronically in RETA was inconsistent. According to NCR personnel, there are no set
requirements or policy dictating what documentation should be uploaded and
maintained in RETA. However, this assumption is incorrect and may be due to
inconsistent policies.

The NPD only states that a signed Form 2957 needs to be uploaded into RETA, yet
other PBS guidance prescribes additional RWA documentation that should be loaded
into the system. For instance, the PBS Reimbursable Services Standard Operating
Procedures User Guide, April 2008, lists deliverables that should reside in RETA,
including a scanned signed Form 2957, Customer Service Letters, and a
comprehensive description of requirements. Additionally, the Desk Guide Section 3.12:



14
   In GSA Order ADM 5440.648, PBS budgetary and financial management functions were realigned
under the Office of the Chief Financial Officer (OCFO), effective April 15, 2012. This reorganization also
realigned the PBS Financial Operations Division under the newly established CFO, Office of Policy and
Operations. In addition, the functions, staff, authorities, and other resources of the three PBS Central
Office divisions of the Office of Budget and Financial Management were transferred to the OCFO (i.e., the
Financial and Reporting Division, the Revenue Division, and the Financial Operations Division). The
regional functions of these offices were also transferred from each of the Offices of the PBS Regional
Commissioner to the OCFO.


A120001/P/F/R13007                              8
“Internal Control Chart – RWAs” states that all documentation related to an RWA is to
be stored in RETA.15

Failing to convey explicit guidance on how to maintain RWAs and their supporting
documentation in RETA reduces assurance that RWA files are complete and accurate.
This has the potential to lead to operational inefficiency, increased costs, and exposure
to unnecessary risks.

Lack of Policy for Certifying Completion
Neither the NPD nor the instructions for completing the RWA Form 2957 specifically
establish who is responsible for certifying an RWA as “complete.” Furthermore, there is
no written policy for delegation of the individual responsibilities associated with
certification of an RWA project’s completion. As a result, completion is being certified
by a variety of personnel throughout various GSA organizations.

The PBS National Reimbursable Services Division advised us that it is normal practice
for Project Managers, responsible for overseeing and communicating the progress of an
RWA, to certify substantial completion of an RWA. However, we found instances in
which PBS Reimbursable Services and the Office of the Chief Financial Officer (OCFO)
personnel, including Financial Management Analysts, Budget Analysts, and Directors,
were certifying an RWA as “complete.” If properly designated and qualified individuals
are not certifying a project’s completion, assurance that the project was actually or
satisfactorily completed is decreased.

Corrective Actions Taken and Regional Action Needed
Since the completion of our testing, PBS updated its National Policy Document,
effective as of September 2012, to more clearly define the policies and procedures
surrounding approval RWAs over $5 million, electronic file documentation, and
certification of RWA completion. Notwithstanding those actions, NCR management
should continually assess the policies and procedures governing the Region’s
reimbursable program and take appropriate action to ensure that they are clear and
consistent. This may include supplementing or clarifying national policies and
procedures at the Regional level as appropriate.

Recommendations
We recommend the NCR Regional Administrator:

      1. Develop and implement a plan to ensure existing controls are consistently
         applied at all NCR service centers and identify internal control system
         weaknesses to improve RWA management.
      2. Clarify and actively manage the policy regarding RWAs to ensure that the service
         centers apply the policy consistently, and that RWAs are authorized at the
         appropriate levels throughout the NCR service centers.



15
     All documentation includes cost estimates dated after February 2011.


A120001/P/F/R13007                               9
Management Response
The NCR Regional Administrator’s response to the report stated that NCR agreed with the
findings and that controls over NCR RWAs could be strengthened to improve the RWA
program. The Regional Administrator detailed the actions already underway to address the
report recommendations. Management’s comments are included as Appendix C.




A120001/P/F/R13007                     10
Conclusion
Overall, NCR has been inconsistent in following policies and guidance in the RWA NPD
and the PBS Desk Guide. Furthermore, inaccurate and incomplete documentation and
inconsistent communication with the customer agency reduces the overall effectiveness
of established controls for the successful management of RWAs and the efficiency of
how PBS serves its customers. These issues place GSA at risk for inaccurate financial
reporting, improper use of funds, and potential violations of GSA acquisition policy, as
well as applicable laws and regulations.

Throughout the course of our audit, PBS informed us of its efforts to improve policies
and procedures for RWAs, and its plans to take immediate corrective actions. These
improvements will assist NCR in achieving consistency in application and adherence to
internal policies and procedures established for the effective management of RWAs.




A120001/P/F/R13007                     11
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the GSA Office of Inspector General’s Fiscal Year 2012
Annual Audit Plan to address concerns and issues identified in previous financial
statements audits regarding RWAs.

GSA’s financial statements audits are performed by independent public accountants.
The primary focus of the independent public accountant's review of RWAs is on
financial impact. Therefore, in an effort to avoid redundancy, and to reduce the
duplication of effort, our audit focused on the adequacy of management’s controls over
the RWA process (i.e., the internal control environment).

Scope

This audit was limited to RWAs processed and managed by the National Capital Region
(NCR – Region 11). Our audit period included RWAs that were issued or managed
(e.g., financially completed, terminated, or purged) by NCR during fiscal year 2011. We
limited our audit to four of eight RWA types: A, B, F, and N. These four RWA types are
non-recurring,16 and were selected based on risk,17 total RWA authorized amount, and
volume of activity.

Taking a risk based approach, and considering our audit objectives, we tested a total of
85 A-, B-, F-, and N-type RWAs. We used data analysis software to generate a random
sample for each RWA type selected for testing.

Methodology

To accomplish our objective, we:

        Reviewed relevant criteria from the United States Code, including the Bona Fide
         Need Rule and the Anti-Deficiency Act; GSA memoranda; and PBS internal
         policies and procedures pertaining to the RWA process.
        Reviewed audit reports, findings, and GSA corrective action plans resulting from
         previous audits by the OIG, as well as the audit of GSA’s financial statements
         performed by the independent public accountants.


16
   Non-recurring RWAs are those RWAs that provide services where the costs can be readily identified
and captured. Examples include, but are not limited to construction, alterations and overtime utilities
where the service is separately metered and the overtime charges incurred are identifiable.
17
   As defined by the Government Accountability Office, the assessment of audit risk involves both
qualitative and quantitative considerations. Factors impacting audit risk include time frames, complexity,
or sensitivity of the work; size of the program in terms of dollar amounts and number of citizens served;
systems and processes to detect inconsistencies, significant errors, or fraud; and auditors’ access to
records.


A120001/P/F/R13007                            A-1
      Conducted meetings and interviews with PBS Central Office and NCR – Region
       11 Reimbursable Services staff members and service center employees.
      Performed walkthroughs of the RWA process with NCR service centers.
      Selected and examined a sample of RWA files that were processed and
       managed by NCR during fiscal year 2011, and reviewed supporting
       documentation maintained in both manual RWA files and the RWA Entry and
       Tracking Application system.
      Performed tests of internal controls over the phases of the RWA process.
      Obtained and assessed the results of semi-annual and high-risk reviews of
       RWAs and their unfilled customer order balances.

We conducted the audit between October 2011 and July 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

Our examination of internal controls was limited to RWAs managed by NCR service
centers. We tested internal controls and compliance with applicable policies and laws,
including the RWA National Policy Document, PBS’s National Financial Accounting
Process and Internal Controls Desk Guide, the Economy Act, the Property Act, and the
Bona Fide Need Rule.




A120001/P/F/R13007                   A-2
Appendix B – RWA Matrix: Types & Examples
The following matrix defines the four RWA types we examined during our audit.

RWA Type      RWA Class        Severable or     Description and Examples
                               Non-Severable
A             Non-Recurring    Non-severable    A-type RWAs depict projects funded by both PBS and the customer agency
                                                (i.e., split-funded) and are for a one-time need. They support, or are
                                                associated with, a non-prospectus project (e.g., a minor repair and alteration
                                                project) and are for projects in federally owned space only. Examples:
                                                Construction and/or design services.
B             Non-Recurring    Non-severable    B-type RWAs depict projects funded by both PBS and the customer agency,
                                                or customer agency-funded only, and are for a one-time need. They support,
                                                or are associated with, a prospectus project regardless of the amount.
                                                Example: Customer agency-funded work for above-standard Tenant
                                                Improvements that exceed the prospectus threshold.
F             Non-Recurring    Severable or     F-type RWAs depict services for one or more miscellaneous projects not
                               Non-Severable    exceeding $25,000 each, inclusive of fees. The total amount for F-type
                                                RWAs cannot exceed $250,000 per year. This RWA type requires no cost
                                                estimate and must close by September 30 of the fiscal year in which
                                                originated. F-type RWAs may not include both severable and non-severable
                                                services on the same RWA. Also, GSA need not certify an F-type RWA as
                                                complete, and can financially closeout the RWA at any time within a fiscal
                                                year. F-type RWAs closeout automatically at the end of the fiscal year in
                                                which originated. Example: Changing key locks.
N             Non-Recurring    Severable or     N-type RWAs depict non-recurring services and are standalone projects for a
                               Non-Severable    one-time need that are fully funded by a customer agency for non-prospectus
                                                projects. N-type RWAs for severable services are limited to 365 days (1 year)
                                                but may cross fiscal years. Examples: Space alterations in owned or
                                                leased space; non-prospectus repairs and alterations; or overtime
                                                utilities where the utility services are separately metered and/or billed.


Source: GSA Public Buildings Service “Federal Customer Guide to Reimbursable Work Authorizations” (June 2011)



A120001P/F/R13007                                       B-1
Appendix C – Management Response




A120001/P/F/R13007     C-1
Appendix C – Management Response (cont’d)




A120001/P/F/R13007      C-2
Appendix C – Management Response (cont’d)




A120001/P/F/R13007      C-3
Appendix C – Management Response (cont’d)




A120001/P/F/R13007      C-4
Appendix C – Management Response (cont’d)




A120001/P/F/R13007      C-5
Appendix D – Report Distribution
Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (P)

Chief of Staff, Public Buildings Service (PD)

Regional Administrator, National Capital Region (WA)

Regional Commissioner, Public Buildings Service, National Capital Region (WP)

Assistant Commissioner, Office of Facilities Management and Services Program (PM)

Regional Counsel, National Capital Region (LDW)

Director, Management and Oversight Division (H1C)

Audit Liaison, Public Buildings Service (BCP)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120001/P/F/R13007                      D-1
